         Office Of Inspector General




December 2, 2005

RICHARD J. STRASSER, JR.
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: Audit Report – Agreed-upon Procedures Report for Federal
         Intragovernmental Transactions (Report Number FT-AR-06-006)

Attached is a copy of the report provided to the Department of the Treasury’s Financial
Management Service (FMS) and the Government Accountability Office (GAO) (Project
Number 05BM008FT000). The report is provided for information only and requires no
management action.

At the request of FMS, we performed the agreed upon procedures to assist them in the
preparation of, and GAO in the audit of, the consolidated financial statements of the
U.S. Government as of and for the year ended September 30, 2005.

If you have any questions, please contact Lorie Siewert, Director, Financial Statements,
or me at (703) 248-2300.
 E-Signed by Gordon Milbourn
ERIFY authenticity with ApproveI



Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachments

cc: Lynn Malcolm
    Vincent H. DeVito
    Margaret A. Weir
    Steven R. Phelps
         Office Of Inspector General




December 2, 2005

FAYE McCREARY
FINANCIAL MANAGEMENT SERVICE, DEPARTMENT OF THE TREASURY

LYNDA DOWNING
GOVERNMENT ACCOUNTABILITY OFFICE

SUBJECT: Agreed-upon Procedures Report on Closing Package
              Intragovernmental Activity and Balances

We have performed the procedures described in the attachment, which were agreed to
by the Department of the Treasury’s Financial Management Service (FMS), the
Government Accountability Office (GAO), and the Office of Management and Budget
(OMB) as stated in the FMS Agency Reporting Requirements for the Financial Report of
the United States Government guidance, solely to assist FMS in the preparation of, and
GAO in the audit of, the consolidated financial statements of the U.S. Government as of
and for the year ended September 30, 2005. Postal Service management is
responsible for the proper accounting, presentation, and reporting of its consolidated
financial statements and reporting of information to FMS.

This agreed-upon procedures engagement was conducted in accordance with
attestation standards established by the American Institute of Certified Public
Accountants and the Government Auditing Standards, issued by the Comptroller
General of the United States. The sufficiency of these procedures is solely the
responsibility of FMS, GAO, and OMB. Consequently, we make no representations
regarding the sufficiency of the procedures described in the attachment either for the
purpose for which this report has been requested or for any other purpose. The
procedures we performed and our associated findings are presented in the attachment.

We were not engaged to, and did not perform an audit of, the matters addressed herein,
the objective of which would be the expression of an opinion on such information.
Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported to you.
This report is intended solely for the information and use of the Postal Service, FMS,
GAO, and OMB and is not intended to be, and should not be, used by those who have
not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.

If you have any questions, please contact me at (703) 248-2300.
 E-Signed by Gordon Milbourn
ERIFY authenticity with ApproveI



Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachment
                          AGREED-UPON PROCEDURES

                 Procedure                                     Finding
Evaluated intragovernmental activity and
balances as follows:
1.   Obtain all Intragovernmental Closing      Obtained all data.
     Package Line Item reports from
     Module 4 of GFRS for
     intragovernmental activity/balances
     supporting the Closing Package
     Reclassified Balance Sheet Federal
     Assets and Liabilities, Reclassified
     Statement of Net Cost’s Federal
     Gross Cost and Federal Earned
     Revenue, and Reclassified Statement
     of Changes in Net Position’s Federal
     Nonexchange Revenue and
     Budgetary and Other Financing
     Sources.

2.   Compare the Intragovernmental             No differences were found in comparing
     Closing Package Line Item reports         to the audited general ledger account
     from Module 4 of GFRS for                 balances. No comparison was made to
     intragovernmental activity/balances by    RSI data because the Postal Service
     Federal line item totals and/or trading   was not required to submit RSI data.
     partner activity/balances to the
     agency’s general ledger and the RSI
     data from the audited financial
     statements. Identify any differences.

3.   Compare trading partner                   This step was not applicable – RSI data
     activity/balances from                    was not submitted.
     Intragovernmental RSI schedules in
     agency’s audited financial statements
     to the agency’s Intragovernmental
     Closing Package vs 4th Quarter
     Submission Comparative Data Report
     and the Intragovernmental Closing
     Package Material Differences/ Status
     of Disposition Certification Report
     (Section II of the CFO
     Representations). For items where
     agency reporting differences exist,
     compare the explanations to
     supporting documentation and identify
     any discrepancies.




4.   On November 23, 2005, FMS will             The explanations and amounts reported
     generate and distribute the                in the Intragovernmental Comparative
     Intragovernmental Comparative              Closing Package Explanations of
     Closing Package Explanation of             Differences Report were adequately
     Differences Report for                     supported. There were no non-reporting
     Intragovernmental activity/balances to     trading partners in the report.
     agency IGs. Agency IGs/Auditors will
     use this report to:

     1. Compare the differences between
        the agency and its trading partners
        by reciprocal category/line-item
        from FMS’ Intragovernmental
        Comparative Closing Package
        Explanation of Differences Report
        to explanations from the agency
        supporting documentation. For
        items where agency reporting
        differences exist, compare the
        explanations to supporting
        documentation and identify any
        discrepancies.

     2. Identify any inconsistencies in
        amounts or explanations between
        FMS’ Intragovernmental
        Comparative Closing Package
        Explanation of Differences reports
        and agency’s supporting
        documentation.

     3. In the event of non-reporting by
        trading partners, as indicated in the
        footer section of FMS’
        Intragovernmental Comparative
        Closing Package Explanation of
        Differences reports, identify whether
       the difference is due to a non-
       reporting partner and do not
       proceed further with the review of
       the differences.

5.   Identify and include copies of internal   There were no internal control findings
     control findings related to               related to intragovernmental activities
     intragovernmental activities from the     from the financial statements audit, and
     financial statements audit, including     there were no waived adjustments
     items cited in the management letter.     related to intragovernmental activities
     Also, identify and report auditor-        from the audit.
     proposed intragovernmental
     adjustments that were waived by the
     agency.
